IN THE

Supreme Court of the United States
CYRUS MARK SANAI,
Petitioner,
v.
D. JOSHUA STAUB, an individual; FREDERICK BENNETT,
an individual; PHU CAM NGUYEN, an individual;
CHRISTOPHER MCINTIRE,
Respondents,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55427
CYRUS MARK SANAI,
Petitioner,
v.
MARK BORENSTEIN, an individual;
Respondent,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55429
PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

On Petition for a Writ of Certiorari to the Ninth Circuit Court of Appeals

PROOF OF SERVICE

I, Cyrus Sanai, do swear or declare that on this date, February 20,
2021, as required by Supreme Court Rule 29 I have served the enclosed
SUPPLEMENTARY BRIEF ON NEW AUTHORITY IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT AND AMENDED
QUESTIONS PRESENTED on each party to the above proceeding or that
party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Kevin Michael McCormick
Lowthorp, Richards, McMillan, Miller & Templeman, APC
300 E. Esplanade Drive
Suite 850
Oxnard, CA 93036
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on February 20, 2021

